  August 13, 2003




Financial Management

Closing the Army’s 1985
M1A1 Tank Contract
(Contract DAAE07-85-C-A043)
(D-2003-122)




      Office of the Inspector General
                   of the
          Department of Defense
                                    Constitution of
                                   the United States

    A Regular Statement and Account of the Receipts and Expenditures of all public
    Money shall be published from time to time.
                                                               Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

ACRN                  Accounting Classification Reference Number
DCMA                  Defense Contract Management Agency
DCMR                  Defense Contract Management Region
DFAS                  Defense Finance and Accounting Service
DFAS-CO               Defense Finance and Accounting Service Columbus
FAR                   Federal Acquisition Regulation
FMR                   Financial Management Regulation
MOCAS                 Mechanization of Contract Administration Service
RAID                  Request And Inspection of Documents
SAPAS                 Standard Accounts Payable and Accounting System
SOMARDS               Standard Operations and Maintenance Army Research and
                         Development System
TACOM                 Tank-Automotive and Armaments Command
          Office of the Inspector General of the Department of Defense
Report No. D-2003-122                                                    August 13, 2003
   (Project No. D2002FJ-0180)

                Closing the Army’s 1985 M1A1 Tank Contract
                   (Contract Number DAAE07-85-C-A043)

                                Executive Summary

Who Should Read This Report and Why? This report should be read by civil service
and uniformed officers in the acquisition and finance and accounting areas who are
responsible for contract maintenance and closeout. The report discusses the process of
completing a contract fund reconciliation prior to closure of the Army’s 1985 M1A1
Tank contract.

Background. On June 18, 2002, the DoD hotline received a complaint that DoD planned
to close the Army’s 1985 M1A1 Tank contract (DAAE07-85-C-A043) prematurely. The
complaint cited a modification, signed on October 24, 2001, that required the Defense
Finance and Accounting Service Columbus to reduce the $1.01 billion unliquidated
balance in the Mechanization of Contract Administration Services system to zero without
performing a contract fund reconciliation. The official accounting records that are
maintained at the Defense Finance and Accounting Service, St. Louis, showed that no
unliquidated obligation balance remained for the $3.82 billion contract. The hotline
complainant concluded that without a proper reconciliation of the balances in the
Mechanization of Contract Administration Services system, issuance of the modification
could result in a misuse of funds.

Results. The allegations were substantiated. The Defense Contract Management
Agency inappropriately attempted to use a contract modification to adjust the
Mechanization of Contract Administration Services system records that were out of
balance by $1.01 billion for the Army tank contract. Additionally, although the Defense
Finance and Accounting Service Columbus did not accept the Defense Contract
Management Agency modification, it did not perform the thorough contract fund
reconciliation that was needed to minimize and correct the out of balance condition. As a
result, without an adequate contract fund reconciliation, the Defense Finance and
Accounting Service Columbus could not close the contract in the Mechanization of
Contract Administration Services system. Additionally, the audit showed a potential
over-disbursement of $1.9 million. However, until a full reconciliation is completed, any
over-disbursed amount cannot be confirmed or recovered. To improve the process and
reduce the risk of undetected over or under payments, the Defense Contract Management
Agency needed to provide the Defense Finance and Accounting Service Columbus with a
complete and validated obligation review for the total value of the contract. Upon receipt
of the obligation review, the Defense Finance and Accounting Service Columbus needed
to perform a reconciliation of total obligations in the Mechanization of Contract
Administration Services system and make adjustments as necessary. Additionally, the
Defense Finance and Accounting Service Columbus needed to perform a reconciliation
of total disbursements using all files and records available prior and subsequent to the
transfer of the disbursing function from the Tank-Automotive and Armaments Command
to the former Defense Contract Management Region, Cleveland, in July 1990. In
performing the reconciliation, the Defense Finance and Accounting Service Columbus
also needed to consider data available at the Defense Finance and Accounting Service,
St. Louis, and the Tank-Automotive and Armaments Command. In addition, the Defense
Finance and Accounting Service Columbus and the Tank-Automotive and Armaments
Command needed to determine whether the potential over-disbursement of $1.9 million
is accurate and recoverable. Finally, DoD record retention regulations needed to be
revised to conform with the requirements of the Federal Acquisition Regulation. See the
Finding section for a discussion of details.

Management Comments and Audit Response. The Under Secretary of Defense
(Comptroller)/Chief Financial Officer did not provide comments. We request that the
Under Secretary provide comments on the final report. The Defense Contract
Management Agency did not agree with parts of this report but concurred with all of the
recommendations. The Defense Contract Management Agency believed that the report
was inappropriately silent on the existence of a draft replacement of the final contract
modification that it had prepared and the report did not fully portray the circumstances
surrounding the non-processing of the original final contract modification. The Defense
Contract Management Agency stated that actions related to the recommendation to
provide the Defense Finance and Accounting Service Columbus with a complete and
validated obligation review that equaled the total value of the contract were completed
and submitted in February 2003. Additionally, the Defense Contract Management
Agency stated that it completed action related to the recommendation to add language to
the draft, “Unreconcilable Contract Guidance,” that required contacting the applicable
records holding activity if all their efforts fail in obtaining original source documents.
The Defense Finance and Accounting Service Columbus concurred or partially concurred
with the finding and six of the recommendations and nonconcurred with two
recommendations. The Defense Finance and Accounting Service Columbus stated that it
would not be cost-effective to expend additional resources and work hours in an attempt
to retrieve databases no longer in use. The Defense Finance and Accounting Service
Columbus also stated that the retention period for original disbursing records should
extend to 6 years and 3 months after contract closure rather than the current requirement
in the Federal Acquisition Regulation of 6 years and 3 months after final payment.

Comments from the Defense Contract Management Agency to the recommendations
were responsive. We did not discuss the draft replacement modification because the
proposed modification would not result in the Defense Finance and Accounting Service
Columbus correcting its substantial out of balance condition or closing this contract in
Mechanization of Contract Administration Services. Comments from the Defense
Finance and Accounting Service Columbus were also responsive except on the use of all
other databases. We believe that identifying additional electronic databases from either
the fund holder or accounting station that might assist in the reconciliation process could
be a prudent use of resources. Although electronic databases no longer in use might not
contain all data, an attempt should be made, on a case-by-case basis, to pursue every
available record when reconciling contracts for which hard copy documentation is not
available. We do agree that the costs versus the benefits should be considered in each
case. We request that the Under Secretary of Defense (Comptroller)/Chief Financial
Officer and the Defense Finance and Accounting Service Columbus provide comments
by October 10, 2003.

See the Finding section of the report for a discussion of management comments and the
Management Comments section of the report for the complete text of the comments.
                                             ii
Table of Contents

Executive Summary                              i

Background                                    1

Objective                                     2

Other Matters of Interest                     2

Finding
     Contract DAAE07-85-C-A043 Closeout        3

Appendixes
     A. Scope and Methodology                 14
         Management Control Program Review    14
         Prior Coverage                       14
     B. Report Distribution                   15

Management Comments
     Defense Contract Management Agency       17
     Defense Finance and Accounting Service   21
Background
    On June 18, 2002, the DoD hotline received a complaint that the Defense
    Contract Management Agency (DCMA) and the Defense Finance and Accounting
    Service (DFAS) were in the process of modifying the Army’s M1A1 Tank
    contract (DAAE07-85-C-A043) prematurely. The modification would have
    removed an unliquidated obligation balance of $1.01 billion from the MOCAS
    records without reconciling the contract funds to determine the reason for the
    unliquidated balance.

    The Army’s M1A1 Tank contract was awarded on April 1, 1985, and was
    administered by the DCMA office in Warren, Michigan. The contract was
    awarded to the General Dynamics Land Systems, Inc., in Sterling Heights,
    Michigan.

    The procuring contracting office was the Tank-Automotive and Armaments
    Command (TACOM) in Warren, Michigan. DCMA Detroit personnel stated that,
    at the time of the hotline complaint, the Army had procured approximately
    5,404 M1A1 tanks using the contract. No further purchases were planned. The
    total contract value was $3.82 billion, according to the final TACOM funding
    modification on August 12, 1997.

    TACOM performed the initial payment functions when the contract was awarded.
    TACOM personnel recorded payments manually until they began recording them
    in the Army’s Standard Accounts Payable and Accounting System (SAPAS). The
    payment function was transferred to the Cleveland Office of Defense Contract
    Management Region (DCMR-Cleveland) on July 6, 1990. In the transfer,
    TACOM included a spreadsheet identifying all purchase request order numbers
    and ACRN balances up to the date of the transfer. TACOM also provided a
    certification memorandum identifying total disbursements and the remaining
    unliquidated obligations. DCMR-Cleveland entered the remaining unliquidated
    obligations into the MOCAS system on July 13, 1990.
    Additional payments and obligations were made by DCMR-Cleveland until the
    function was transferred to DFAS Columbus (DFAS-CO) where it remained until
    the final payment on the contract on September 18, 1997.

    The contract was physically complete, and the contractor had agreed that there
    were no outstanding bills that required payment. However, MOCAS showed an
    unliquidated obligation balance of $1.01 billion. To determine why the
    unliquidated obligation existed, DFAS-CO needed to perform a contract
    reconciliation.




                                       1
Objective
     The objective of the audit was to evaluate the validity of the allegations in the
     hotline complaint. Specifically, we focused our audit on determining whether all
     possible efforts were made to administratively and financially close the Army’s
     M1A1 contract out of the MOCAS system. See Appendix A for a discussion of
     the audit scope and methodology.


Other Matters of Interest
     During the audit, a potential over-disbursement of approximately $1.9 million
     was disclosed in the Army’s M1A1 Tank contract. We performed a reconciliation
     of total disbursements made by DCMR-Cleveland and DFAS-CO. DFAS-CO
     also performed a reconciliation during our audit by performing a cash audit and
     verification of hard copy sub-vouchers. The DFAS-CO reconciliation identified
     errors in the work-in-progress line items. The errors, made at the time of the
     transfer of the contract payment function, contributed to erroneous transactions
     being posted to MOCAS.

     We compared the data in the automated records of obligations and disbursements
     with the data available when TACOM transferred the payment function to
     DCMR-Cleveland. We used the signed certification prepared by the TACOM
     finance and accounting director as the starting point for disbursements made by
     TACOM. However, the documentation showed that the obligation review
     prepared by DCMA-Detroit was understated. Total obligations were
     $3,817,595,905.18. Disbursements were greater than obligations by $610,268.14.

     DFAS-CO performed a cash audit of the TACOM disbursing documents during
     the audit. The cash audit indicated total disbursements were almost $1.3 million
     more than the disbursement dollar figure that TACOM had certified. This raised
     the potential over-disbursement to approximately $1.9 million. The ultimate
     value of the potential over-disbursement cannot be determined until DFAS-CO,
     TACOM, and DCMA-Detroit complete their reconciliation effort.
     At the time of our audit, the procuring contracting officer from TACOM agreed
     with our preliminary conclusions and began working with personnel from
     DFAS-CO in an attempt to identify the actual amount of the potential over-
     disbursement. The Office of the Inspector General of the Department of Defense
     will continue to monitor this issue until it is resolved.




                                         2
           Contract DAAE07-85-C-A043 Closeout
           The allegations were substantiated. DCMA attempted to use a
           modification of the Army tank contract to adjust MOCAS records by
           $1.01 billion to bring the financial records into balance—a necessary step
           to close the contract. DFAS-CO refused to make the modification, but did
           not perform an exhaustive search for supporting documents or fully
           consider posting errors, incorrect obligation reviews, and incomplete
           databases—a necessary step to reconcile the contract. Further, some
           records that should have been available for the reconciliation had been
           destroyed in accordance with the record retention polices in the Financial
           Management Regulation. The records were destroyed because DoD
           record retention policies require shorter holding periods than the Federal
           Acquisition Regulation does. As a result of the inadequate contract
           reconciliation, DFAS-CO could not eliminate the $1.01 billion in
           unliquidated obligations in MOCAS to bring the financial records back
           into balance so they could close out the contract.


DCMA Plans to Modify the Contract
    DCMA attempted to close the Army tank contract using a modification that
    required DFAS-CO to use accounting adjustments to close out every open
    contract line item in MOCAS. DCMA-Detroit issued Modification
    Number A00776 to the Army tank contract on October 24, 2001. This
    administrative modification was an attempt to balance the MOCAS records by
    making adjustments to each record that showed either an unliquidated or negative
    unliquidated obligation amount. In total, there were $1.01 billion of unliquidated
    obligations remaining on the contract at the time the modification was signed.
    DCMA and DFAS-CO personnel indicated that in previous cases the use of this
    type of modification had been an accepted business practice for closing
    out-of-balance contracts in MOCAS.

    DFAS-CO did not accept the contract modification. DFAS-CO personnel
    indicated they believed it was not appropriate to close the contract using a
    contract funding modification that adjusted MOCAS. DFAS-CO based its
    conclusion on the General Accounting Office report, “Canceled DoD
    Appropriations—$615 Million of Illegal or Otherwise Improper Adjustments,”
    July 26, 2001. The GAO report discusses numerous contracts that had been
    adjusted illegally or improperly using external vouchers thus affecting Treasury
    accounts. DFAS-CO personnel believed the criteria GAO used to make its
    determination was also applicable to modifying the Army’s tank contract.

    We examined the adjustments proposed in the modification and concluded that
    DFAS-CO did not need to use canceled funds. The adjustments that needed to be
    made to MOCAS records were internal bookkeeping adjustments only, and would
    not affect Treasury accounts. However, a contract modification to reduce the
    $1.01 billion unliquidated obligation shown in MOCAS was not the appropriate
    method for closing the MOCAS records. The unliquidated obligation amount in
    MOCAS should have been fully investigated, and a full contract reconciliation
                                        3
     should have been performed to reduce the unliquidated obligation amount to the
     minimum using all existing records.


DFAS-CO Reconciliation Process
     DFAS-CO Desk Procedure (DP) 607, “Contract Reconciliation,” indicates that
     the first step in performing a reconciliation is data collection. This process,
     “Request And Inspection of Documents” (RAID), requires DFAS-CO personnel
     to collect all pertinent documents for a contract to show all ACRNs,
     modifications, payments, and other transactions that may affect an audit. Data
     collection is in the form of hard copy documents, MOCAS reports, accounting
     station obligation and unliquidated obligation records, electronic documents such
     as those processed in the Electronic Data Interchange, and microfiche.
     Subsequent to the RAID process, if it has been determined that all documentation
     has been found or substituted with documentation recreated by other means, the
     contract can move forward to a reconciliation.

     The reconciliation process could entail either a partial or full reconciliation. A
     full reconciliation includes an analysis of all obligation and disbursement
     documents for the entire contract. DP 607 specifies that a RAID must be
     completed prior to starting the full reconciliation process. If excessive
     documentation is missing from the contract file during the pre-audit review, the
     contract status is logged as either “open” or “work-in-progress” until all the
     necessary documentation is found.


Adequacy of Reconciliation Efforts to Close Contract
     At the time of our audit, DFAS-CO had not performed an adequate reconciliation
     of the funds disbursed on the contract for the following reasons:

        •   inaccurate information in the automated databases,

        •   inadequate search for and use of available supporting documentation,

        •   DoD record retention policies that were not in conformance with the FAR,
            and

        •   inadequate use of the standard contract reconciliation tool.

     Database Accuracy. According to documentation from the TACOM Finance
     and Accounting Director, $3.7 billion had already been obligated on the contract
     and $2.9 billion had been disbursed as of the transfer of the records on
     July 6, 1990. However, DCMR-Cleveland personnel never entered the original
     obligation and disbursement data into MOCAS. DCMR-Cleveland entered
     $853 million in obligations—the net amount that was transferred by TACOM on
     July 13, 1990. The reason DCMR-Cleveland did not enter all obligations and
     disbursements in MOCAS may have been that TACOM did not provide electronic

                                          4
           data that identified each obligation and disbursement transaction.1 As a result,
           only those ACRNs with balances remaining on them were input into MOCAS.

           Later, when populating the MOCAS database, DFAS-CO personnel made errors.
           Specifically, they entered obligations as undispersed, although they had already
           been posted and disbursed by TACOM prior to the transfer. As a result, an
           additional $1.4 billion in obligations appeared in the MOCAS system
           erroneously.

           According to DFAS-CO personnel, the additional obligations were entered at a
           time when DFAS-CO received invoices requiring payment. The contract lines
           being disbursed did not have sufficient obligations recorded in MOCAS. To
           compensate, DFAS-CO personnel entered additional obligations in MOCAS. In
           addition to the $853 million already entered, obligations totaling $1.4 billion were
           posted. The money was entered from any funded contract modification that was
           available. However, $1.3 billion of those funds were never needed because the
           funds had been obligated and liquidated by TACOM prior to the 1990 transfer of
           the payment function. As a result, most of the obligations became excess in
           MOCAS and constituted the unliquidated balance that remained when DCMA
           attempted to close the contract using a modification that balanced the records. Of
           the $3.8 billion on the contract, TACOM had disbursed $2.9 billion by 1990.
           DFAS needed to find the proper documentation and enter only $106 million in
           obligations in MOCAS, in addition to the $853 million already entered, to cover
           the remaining invoices that were processed on the contract.

           In addition to the inaccurate MOCAS data introduced by DFAS-CO personnel, an
           obligation review prepared by DCMA-Detroit and provided to DFAS-CO
           contained inaccurate data. Specifically, the DCMA administrative contracting
           officer indicated that modification number P00302, the final funding modification
           deobligating funds, reflected a final contract value of $3,821,191,546.18.
           However, the administrative contracting officer’s obligation review that was
           provided to DFAS-CO showed a contract value of $3,820,634,233.18—a
           difference of $557,313. Additionally, the value reported on the obligation review
           did not reflect two de-obligations in the amount of $3.0 million on the final
           funding modification (P00302). Therefore, the value reported on the obligation
           review should have been $3.817 billion, roughly $3.6 million less than the
           cumulative contract value identified on the final funding modification.

           The discrepancies in MOCAS that were introduced at the initial transfer date and
           the erroneous obligation review contributed to the problems in reconciling this
           contract.

           Supporting Documentation. DFAS-CO personnel perceived the lack of
           supporting documentation as more extensive than it actually was, and the RAID
           process led them to conclude that this contract was unreconcilable. For instance,
           if a disbursement sub-voucher did not have a corresponding invoice attached,

1
    The contract administration function was transferred from DCMR-Cleveland to DFAS-CO after DFAS
    came into existence in 1991. DFAS-CO personnel could not provide a cause for the failure to input total
    obligations and disbursements into MOCAS because documentation was not available from the 1990
    time period.

                                                      5
DFAS-CO personnel considered the sub-voucher non-supportable. Likewise, if
they found an invoice without a corresponding sub-voucher, they considered the
invoice non-supportable. Other documentation was available but not used.
Specifically, DCMR-Cleveland office had not properly posted the TACOM
disbursing documentation when it was originally transferred. Also, DFAS-CO
personnel did not consider that documentation when they reviewed the contract
files to assess the documentation available for reconciliation.

         TACOM Documentation. During the audit we obtained 40 TACOM
files that were originally transferred to DCMR-Cleveland on July 6, 1990, and
that contained sub-vouchers and invoices. The files were at DFAS-CO but never
used in the reconciliation effort. Had DCMR-Cleveland used those documents to
post disbursement data into MOCAS in 1990, subsequent confusion about the
disbursement status might have been minimized throughout the life of the
contract. The documents could have been used to post and verify the amounts the
TACOM Finance and Accounting Director included and certified as disbursed
when he transferred payment responsibility. Also, any discrepancies could have
been resolved at that time.

If the decision was made not to enter the TACOM file data manually into
MOCAS because of resource constraints, at a minimum, DCMR-Cleveland
should have performed a cash audit. The cash audit would have included a
review of the hard copy disbursing and collection documents in a spreadsheet
format, allowing them to add or subtract total values without regard for the line
item that was involved. This methodology would have been another means of
verification of the disbursement figure received from TACOM. The cash audit
method could also have resolved balance discrepancies at that time. However, the
TACOM documents remained un-reconciled until the time of our audit.

         Assessment Process. DFAS-CO personnel did not properly review the
40 file folders transferred from TACOM to DCMR-Cleveland in 1990. Prior to
performing a full reconciliation, the DFAS-CO reconciliation procedure requires
cognizant personnel to perform a RAID, which requires a review of all contract
files to determine whether all modifications and disbursement documents are
available, along with supporting documentation. DFAS-CO personnel concluded
that there were too many documents for this contract that did not have
corresponding support, which prevented a full and valid reconciliation.
According to DFAS-CO personnel, they believed that the original RAID process
failed because the documentation in the 40 file folders did not appear to contain
the same type of documents usually processed in MOCAS. Therefore, they did
not to identify these documents as proper sub-vouchers and nothing was done
with the files until they were identified as appropriate documentation during our
audit.

Record Retention Polices. The records DFAS-CO needed to properly reconcile
and close the contract had not been retained. DoD regulations do not conform to
FAR Subpart 4.805, which prescribes the procedures for the handling, storing,
and disposal of contract files. The FAR states that the retention period for




                                    6
           contracts, including related records or documents such as disbursing documents,
           shall be 6 years and 3 months after final payment.2

           However, the DoD Financial Management Regulation (FMR) and
           DFAS 5015.2 M, “Records Disposition Schedule,” January 2000, requirements
           differ from the FAR requirements. The FMR, volume 5, chapter 21, “Disbursing
           Office Records,” last updated October 30, 2002, states that original Disbursing
           Officer records shall be retained for a 6-year and 3-month period after the fiscal
           year of the disbursement. The FMR states that this retention requirement applies
           to both paper and electronic copies. Finally, original disbursing officer records
           include several categories—one of which includes disbursement and collection
           vouchers, including supporting documentation such as invoices, receiving reports,
           purchase orders or contracts, and lodging receipts. The DFAS Manual mirrors the
           FMR requiring that original disbursing documents covered under Schedule 7300,
           be maintained for just 6 years and 3 months after the fiscal year of the
           disbursement.

           DFAS adhered to the requirements in the Manual, and the records holding office
           at DFAS Indianapolis destroyed all original disbursing documents in 1996, a full
           year before final payment.

           In order to improve the record retention process, the records retention policies in
           the DoD FMR, volume 5, chapter 21, and the DFAS 5105.2-M need to be revised
           to require the maintenance of records for all contracts in conformance to
           provisions in the FAR. The regulations should require DoD Components and
           DFAS to retain records for 6 years and 3 months after the final payment. The
           revision would ensure a second source of data for DoD Components and DFAS
           activities attempting to reconcile long-term contracts, and also would provide
           support in the event any claims affecting the U.S. Government are identified
           subsequent to a contract’s final payment.

           Reconciliation Tool. DFAS-CO use of the Standard Contract Reconciliation
           Tool was not effective. DFAS-CO personnel compared MOCAS records to the
           Standard Operations and Maintenance Army Research and Development System
           (SOMARDS), using the Standard Contract Reconciliation Tool. However,
           SOMARDS did not contain all the needed data. The tank contract was primarily
           accounted for in the Army’s older database system, Standard Accounts Payable
           and Accounting System (SAPAS) that was retired in 1998. Personnel at DFAS-
           St. Louis indicated that all of the data did not transfer from SAPAS to
           SOMARDS in 1998, and additional data had been lost during previous
           conversions of the SAPAS database. However, DFAS St. Louis provided our
           office a download of the SAPAS database that contained a significant portion of
           data on this contract that DFAS-CO personnel could have used in their
           reconciliation effort.
           DFAS-CO failure to identify the inadequacies of current systems resulted in
           inadequate use of resources, including the reconciliation tool, and also resulted in
           inaccurate conclusions concerning the comparison between MOCAS and
           SOMARDS.

2
    For contracts exceeding the simplified acquisition threshold, excluding construction contracts.

                                                        7
Actions Being Taken to Improve Guidance on Locating
  Missing Documentation
    During the audit, the reconciliation sub-group of the MOCAS Transition
    Assistance Center provided our office a draft document that deals with contract
    reconciliation entitled, “Unreconcilable Contract Guidance.” The purpose of this
    document is to outline procedures that will assist in the determination of whether
    a contract is unreconcilable. The guidance describes the new process that will be
    used to move a contract to the “Contract Administration Record Section 4” in
    MOCAS, conduct a documentation search, and make a final determination of the
    contracts reconcilability status. The process identifies who should be contacted
    during the RAID to find missing documentation. An exhaustive search is
    performed using available documentation and records at DFAS-CO. The draft
    guidance identifies the following four resources that will be used:

         •   administrative contracting officer records,

         •   procuring contracting officer records,

         •   fund holder’s records, and

         •   accounting station’s records.

     We believe the guidance should include additional steps to ensure that all
     potential sources of data have been contacted and a final determination of
     documentation availability can be made. If all efforts to provide documentation
     for a complete reconciliation fail, DFAS should request that the applicable
     records holding activity obtain copies of original source documents. The
     guidance should also include provisions to ask the applicable fund holder or
     accounting station whether any data might be available outside of current
     databases that might assist DFAS-CO in reconciling and closing contracts.


Actions Needed to Close Contract
    Although the allegation that the Army’s tank contract should be reconciled to
    ensure that there was no misuse of funds was substantiated, the contract may
    never be completely reconciled. Inadequate management of data during the
    contract transfer process contributed to the lack of an adequate audit trail and a
    complete accounting of all documentation to perform a completely accurate
    reconciliation. However, this contract is physically complete, the contractor has
    certified that no further obligations are due from the Government, and the official
    accounting records maintained at DFAS, St. Louis show a zero balance.

    As a result, the process of closing this contract needs to go forward. Therefore,
    all reasonable efforts should be made to identify total obligations and total
    disbursements in as much detail as possible through a complete reconciliation
    process. The need to perform this reconciliation is based upon the possibility that
    perhaps documentation or records not found during the audit may be found that
                                          8
    will assist in definitively identifying whether this contract was over-disbursed.
    Once DFAS-CO has reconciled this contract to the maximum extent possible, it
    should prepare a package that fully documents a complete audit trail identifying
    what was done. In addition to the support for efforts to reconcile this contract, a
    cost versus benefit analysis should be performed to determine what the impact of
    maintaining this contract in MOCAS is and whether further reconciliation efforts
    would not benefit the U.S. Government.

    The package should be forwarded to the Office of the Under Secretary of Defense
    (Comptroller)/Chief Financial Officer through the Director, DFAS requesting
    approval to close the Army’s M1A1 Tank contract through the use of internal
    journal vouchers. In our opinion, the journal voucher adjustments to MOCAS
    will not affect either the official accounting records or any Treasury
    appropriations that could cause Anti-Deficiency Act violations. Therefore, after
    analysis and validation by the Under Secretary of Defense (Comptroller)/Chief
    Financial Officer, approval should be given to close this contract.


Management Comments on the Finding and Audit Response
    The Executive Director, Contract Management Operations, DCMA did not agree
    with parts of this report but concurred with all of the recommendations. The
    Executive Director stated that DCMA did not consider the allegations
    substantiated. He also stated that the report was inappropriately silent on the
    existence of a draft replacement modification and did not fully portray the
    circumstances surrounding the non-processing of the original modification and
    the $1.01 billion unliquidated obligation in the MOCAS disbursement records.
    According to DCMA, the draft replacement modification would have
    administratively closed the contract, but would not enable DFAS to close the
    contract in MOCAS. As such, the Executive Director requested that our report be
    modified to acknowledge the draft replacement modification and that the report
    recommend the issuance of the DCMA replacement modification. See the
    Management Comments Section of the report for the full text of the comments.


    Audit Response. The report did not address the draft replacement modification
    because, as stated by the Executive Director, the modification would not result in
    DFAS correcting its substantial out of balance condition or closing this contract in
    MOCAS. We strongly believe that prior to DFAS forcing the balance of MOCAS
    records, DFAS needs to perform as complete a reconciliation as possible and the
    Office of the Under Secretary of Defense (Comptroller)/Chief Financial Officer
    needs to review the results of the reconciliation, evaluate the circumstances
    resulting in any remaining unreconcilable amounts, and authorize closing the
    Tank contract in the MOCAS records. At that point, DCMA could prepare a final
    modification to both administratively and financially close this contract.




                                         9
Recommendations, Management Comments, and Audit
  Response
    1. We recommend that the Director, Defense Contract Management
       Agency, Detroit, provide the Defense Finance and Accounting Service
       Columbus with a complete and validated obligation review that equals
       the total value of the contract.

    Defense Contract Management Agency Comments. The Executive Director,
    Contract Management Operations, Defense Contract Management Agency
    concurred. The Director stated that a new obligation review was completed and
    submitted to the Defense Finance and Accounting Service. However, the Director
    stated that the review only “narrowed the gap” because it did not equal the total
    value of the contract. The Director also stated that the Army Accounting Office
    said that the final obligation value could not be determined, however, it was in the
    range between $3.817 billion and $3.821 billion. The review fell within that
    range when an obligated value of $3.820 billion was determined.

    2. We recommend that the Director, Defense Finance and Accounting
       Service Columbus:

           a. Perform a full reconciliation on total obligations in the
              Mechanization of Contract Administration Services system using
              the data obtained from the Defense Contract Management
              Agency, Detroit and make adjustments as necessary.

    Defense Finance and Accounting Service Columbus Comments. The Director,
    Commercial Pay Services DFAS-CO partially concurred and stated that DCMA
    provided a revised obligation review, but DCMA stated that the revised review
    was not a complete, accurate, and validated obligation audit. Additionally, the
    Army Accounting Office indicated the final obligation amount of the contract
    could not be determined because of missing documentation and other issues. As a
    result, DFAS-CO would attempt to research and reconcile the obligation data in
    MOCAS to the extent possible. Any errors identified during the research will be
    corrected through obligation adjustment transactions.
           b. Complete a reconciliation of total disbursements, using all
              available files and records from the periods before and after the
              transfer of the disbursing function from the Tank-Automotive and
              Armaments Command to the Defense Contract Management
              Region, Cleveland, and make internal adjustments as necessary.

    Defense Finance and Accounting Service Columbus Comments. The Director,
    Commercial Pay Services DFAS-CO partially concurred and stated that a full
    reconciliation is not possible because of the quantity of missing documentation
    and insufficiency of systemic data from the period prior to transfer to Defense
    Contract Management Region, Cleveland. The Director further stated that a cash
    audit of available disbursement documentation is in progress in order to
    substantiate any over/under payment on the overall contract. In addition, the

                                        10
Director stated that errors that have been found in the application of progress
payment transactions would be corrected with internal adjustments.

       c. Prepare a package that documents a complete audit trail to
          include what was done, justification for adjustments, cost-benefit
          analysis, and certification that no further audit efforts can be
          made to reconcile this contract.

Defense Finance and Accounting Service Columbus Comments. The Director,
Commercial Pay Services DFAS-CO concurred and stated that upon completion
of the cash audit and applicable adjustments in progress, they will prepare a
package documenting reconciliation efforts for submission to the Director,
Defense Finance and Accounting Service.

       d. Forward package prepared in Recommendation 2.c. to the Office
          of the Under Secretary of Defense (Comptroller)/Chief Financial
          Officer through the Director, Defense Finance and Accounting
          Service requesting approval to close this contract in the
          Mechanization of Contract Administration Services records.

Defense Finance and Accounting Service Columbus Comments. The Director,
Commercial Pay Services DFAS-CO concurred and stated that the package will
be reviewed for submission to the Director of Defense Finance and Accounting
Service. Upon approval, the Director, Defense Finance and Accounting Service
will forward the package to the Under Secretary of Defense (Comptroller)/Chief
Financial Officer for consideration.

       e. Adjust the Mechanization of Contract Administration Services
          system using internal journal voucher entries to zero out any
          remaining balances after approval is received from the Office of
          the Under Secretary of Defense (Comptroller)/Chief Financial
          Officer.

Defense Finance and Accounting Service Columbus Comments. The Director,
Commercial Pay Services DFAS-CO concurred and stated that upon approval by
the Under Secretary of Defense (Comptroller)/Chief Financial Officer, internal
journal vouchers will be processed to zero out balances remaining in the
Mechanization of Contract Administration Services system.

3. We recommend that the Under Secretary of Defense (Comptroller)/Chief
   Financial Officer:

       a. Review the package from the Defense Finance and Accounting
          Service identified in Recommendation 2.d. and validate that the
          M1A1 Tank contract has been reconciled and adjusted to the
          point that further efforts by Defense Finance and Accounting
          Service Columbus is not reasonable.

       b. Approve closure of the M1A1 Tank contract through the use of
          internal adjustments to the Mechanization of Contract
          Administration Services system.

                                     11
Under Secretary of Defense (Comptroller)/Chief Financial Officer
Comments. The Under Secretary of Defense (Comptroller)/Chief Financial
Officer did not comment on a draft of this report. We request that the Under
Secretary of Defense (Comptroller)/Chief Financial Officer provide comments in
response to the final report.

4. We recommend that the Director, Defense Contract Management Agency
   and the Director, Defense Finance and Accounting Service require the
   Reconciliation Sub-Group of the Mechanization of Contract
   Administration Services Transition Assistance Center to revise the
   current draft procedures on, “Unreconcilable Contract Guidance,” to
   include:

       a. Contacting the applicable records holding activity if all other
          efforts fail in obtaining original source documents.

Defense Finance and Accounting Service Columbus Comments. The Director,
Commercial Pay Services DFAS-CO concurred and stated that the instructions to
obtain archived records were included in the, “Unreconcilable Contract
Guidance,” dated January 17, 2003.

Defense Contract Management Agency Comments. The Executive Director,
Contract Management Operations, Defense Contract Management Agency
concurred. The Director stated that the recommendation has already been
included in the, “Unreconcilable Contract Guidance.”

       b. Identifying additional electronic databases from either the fund
          holder or accounting station no longer in use that might assist in
          the reconciliation process.

Defense Finance and Accounting Service Columbus Comments. The Director,
Commercial Pay Services, DFAS-CO nonconcurred, stating that the data received
from the Standard Accounts Payable and Accounting System, the original
electronic database, were incomplete as not all the data had transferred to the
Standard Operations and Maintenance Army Research and Development System.
The Director stated that this situation is likely to occur with other systems, as the
technology to read the data contained therein has become obsolete. Therefore, it
is not cost-effective to expend additional resources and work hours to attempt to
retrieve and validate this information.

Audit Response: Comments from the Director, DFAS-CO were nonresponsive.
We do not agree that identifying additional electronic databases from either the
fund holder or accounting station that might assist in the reconciliation process
would be a waste of resources. Although electronic databases that are no longer
in use might not contain all data, an attempt should be made, on a case-by-case
basis, to pursue every available record in reconciling contracts for which hard
copy documentation is not available. We believe that a review of the types of
databases mentioned in the report has the potential to fill in missing pieces in the
reconciliation process. If the data are in a format that cannot be used, this should
be documented to demonstrate that every effort has been made to reconcile those
contracts to the fullest extent possible. The costs versus the benefits should be

                                     12
considered in each case. We request that DFAS-CO reconsider its position and
provide additional comments on the final report.

Defense Contract Management Agency Comments. The Executive Director,
Contract Management Operations, Defense Contract Management Agency
concurred. The Director stated that the, “Unreconcilable Contract Guidance,”
already included this recommendation. Funds holder and accounting stations are
identified as sources for missing documentation in the documentation search
process and the unreconcilable worksheet in the guidance. The Director further
stated that if data are provided outside of current databases in a readable and
usable format, the data could be used.

5. We recommend that the Under Secretary of Defense (Comptroller)/Chief
   Financial Officer revise the DoD Financial Management Regulation,
   volume 5, chapter 21, to state that the retention of original disbursing
   documentation be in conformance with the Federal Acquisition
   Regulation, which requires maintenance of these documents until 6 years
   and 3 months after final payment.

Under Secretary of Defense (Comptroller)/Chief Financial Officer
Comments. The Under Secretary of Defense (Comptroller)/Chief Financial
Officer did not comment on a draft of this report. We request that the Under
Secretary of Defense (Comptroller)/Chief Financial Officer provide comments in
response to the final report.

6. We recommend that the Director, Defense Finance and Accounting
   Service, revise DFAS 5015.2-M to state that the retention of original
   disbursing documentation be in conformance with the Federal
   Acquisition Regulation, which requires maintenance of these documents
   until 6 years and 3 months after final payment.

Defense Finance and Accounting Service Columbus Comments. The Director,
Commercial Pay Services, DFAS-CO nonconcurred, stating that the
recommendation is inadequate for DFAS-CO reconciliation purposes. The
Reconciliation Sub-Group of MOCAS, in conjunction with the Reconciliation
Director, recommends all guidance directing the length of record retention be
revised to reference the date of contract closure and not the date of final payment.
The Director further stated that currently, the Mechanization of Contract
Administration Services system has more than a hundred open contracts reflecting
a last payment that occurred more than 6 years and 3 months ago. The Director
felt that destruction of contract files according to the guidelines recommended in
the recommendation would greatly hinder efforts to reconcile and close those
contracts.

Audit Response. Although the Director, Defense Finance and Accounting
Service Columbus nonconcurred, the comments were responsive. Requiring
guidance on record retention to extend 6 years and 3 months after contract closure
will ensure that documentation is available for contract reconciliation and is an
acceptable alternative.



                                    13
Appendix A. Scope and Methodology
    Based on a hotline complaint, we reviewed the steps that DCMA and DFAS-CO
    were taking to close out M1A1 Tank contract. The contract was valued at
    $3.82 billion, although the exact figure cannot be verified until a complete
    reconciliation is performed. We attempted to verify whether the allegations were
    valid, including the need for a contract reconciliation to ensure there was not a
    misuse of funds through an over-disbursement. We conducted interviews,
    reviewed records maintained by DFAS-CO, DCMA Detroit, DFAS St. Louis,
    DFAS Indianapolis, and TACOM. The records included all relevant
    correspondence; MOCAS, SAPAS, and SOMARDS systems data; and
    documentation supporting disbursements from the implementation of the contract
    until its transfer in July 1990.

    We performed this audit from June 2002 through March 2003 in accordance with
    generally accepted government auditing standards.

    Use of Computer-Processed Data. We did not evaluate the general and
    application controls of the MOCAS, SOMARDS, or SAPAS systems that process
    disbursement and obligation data, although we used data produced by those
    systems to conduct the audit. We did not evaluate the controls because the
    objective of the audit was to determine whether the hotline allegation was valid.
    Not evaluating the controls did not affect the results of the audit.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report focuses on the area of
    Financial Management by providing coverage of DoD efforts to confront and
    transform pervasive, decades-old financial management systems.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We did not
    perform a review of the adequacy of management controls because the audit was
    focused on a specific complaint to the DoD hotline.


Prior Coverage
    No prior coverage has been conducted on contract number DAAE07-85-C-A043
    during the last 5 years.

                                        14
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army
Commander, US Army Tank-Automotive and Armaments Command

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force


Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Contract Management Agency
Director, Defense Finance and Accounting Service
   Director, Defense Finance and Accounting Service Columbus
Director, Defense Information Systems Agency




                                          15
Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, International Relations, and
  the Census, Committee on Government Reform




                                        16
Defense Contract Management Agency
Comments




                    17
18
19
20
Defense Finance and Accounting Service
Comments




                      21
22
23
24
Team Members
The Defense Financial Auditing Service Directorate, Office of the Deputy
Inspector General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Paul J. Granetto
Richard B. Bird
James L. Kornides
John K. Issel
Clarence E. Knight III
